                                                                                                                               1

                                     Office of Inspector General, USDA
                                    Investigation Developments Bulletin

April 29, 2014

Producer and Former Spouse Sentenced for Extensive Crop Insurance Fraud - Tennessee
On February 14, 2014, in U.S. District Court in Tennessee, a producer who committed crop insurance and
bankruptcy fraud was sentenced to 51 months in prison and ordered to pay $888,500 in restitution. The
producer’s ex-wife participated in the scheme and was sentenced the same day to 20 months’ imprisonment
and was ordered to pay restitution of $178,500, jointly and severally with the producer and a third co-
defendant who was previously sentenced. The producer has a long history of tobacco program fraud,
having previously gone to prison for tobacco violations, and the U.S. Government has over $30 million in
combined civil judgments against him. The Office of Inspector General (OIG) investigation was initiated
after evidence of fraud was revealed during the course of the producer’s bankruptcy. OIG’s investigation
disclosed that he hid assets by putting tobacco farming operations and crop insurance policies in straw
producers’ names. OIG found that a third co-defendant received approximately $164,000 in crop insurance
indemnities for the 2009 crop year that were actually under the control and direction of the producer.
These funds had been deposited in accounts belonging to his ex-wife and were not disclosed to the
bankruptcy court. The producer and his ex-wife both pled guilty to conspiracy to commit crop insurance
fraud; the producer also pled guilty to bankruptcy fraud.

Co-owner of Meat Processing Plant Sentenced for Misbranding Meat - Nebraska
On March 24, 2014, in U.S. District Court in Nebraska, the co-owner of a meat processing plant that
distributed mislabeled and uninspected meat was sentenced to 2 years of probation. The USDA OIG
investigation determined that the woman and her husband, who owned the plant, directed their employees
to falsely label packages of ground beef with the Federal mark of inspection, although the packages
contained meat that had been processed without USDA inspection. The mislabeled meat products were
sold to a public school system. Uninspected meat products were also sold to a food cooperative. The
owners were charged with violations of the Federal Meat Inspection Act. The woman pled guilty in
October 2013 to a misdemeanor count of misbranding meat. Her husband previously pled guilty to the sale
of misbranded meat.1

Owner of Retail Market Receives Lengthy Sentence and Large Restitution for Felony Offenses –
California
On March 25, 2014, in Los Angeles, California, Superior Court, the owner of a Los Angeles retail market
that trafficked in Supplemental Nutrition Assistance Program (SNAP) benefits was sentenced to 10 years in
State prison and ordered to pay nearly $3.5 million in restitution. He pled guilty to felony counts including
grand theft, unauthorized access of computer data, and tax evasion. Two clerks who worked in the store
and trafficked in SNAP benefits were sentenced on the same day to 364 days in jail. OIG’s investigation,
based on a referral from FNS, determined that the two clerks engaged in SNAP trafficking on a number of
occasions. The owner and two employees were originally charged in early 2013. The owner was arrested
again in July 2013 on charges of unauthorized computer access, conspiracy to commit fraud, and violations
of the California Welfare & Institution Code, as he had continued to traffic in benefits after being released
on bail.




1
  He was sentenced in December 2013 to 18 months of incarceration, followed by 1 year of supervised release, and was ordered
to pay of fine of $8,450.
                                                                                                                        2

Producer Sentenced for Fraud and Theft of Mortgaged Property Related to USDA Loan - Florida
On March 21, 2014, in U.S. District Court in Florida, a producer was sentenced to 21 months in prison and
ordered to pay $300,000 in restitution. USDA OIG’s investigation determined that the producer filed a
false application for a direct Farm Service Agency loan for expenses related to peanut farms he allegedly
planned to operate. The application included lease intention documents on which the producer had forged
the signatures of deceased individuals. He later sold farming equipment purchased with the loan proceeds
without FSA authorization and spent the money on lottery tickets, trips, and other expenses. He pled guilty
in December 2013 to false statements and theft of mortgaged property.

Brothers Attempt to Steal Truckload of Beef Results in Prison Term and Probation - Kansas
On January 27, 2014, two brothers who attempted to steal a truckload of beef from a slaughter facility in
southwest Kansas were sentenced in U.S. District Court in Kansas. One brother pled guilty to conspiracy
to commit interstate shipment fraud and was sentenced to 1 year in prison. The other brother pled guilty to
misprision of a felony and was sentenced to 1 year of supervised release. USDA OIG’s investigation
disclosed that the two brothers tried to steal a truckload of beef valued at $87,000 by pretending to be a
legitimate trucking company that had a contract to transport the meat. The attempt was unsuccessful
because an individual processing the transaction detected irregularities in the paperwork and contacted law
enforcement.

Investigation into Animal Fighting Operation Yields Sentences and Guilty Pleas on Felony Charges -
Washington
On February 25, 2014, in U.S. District Court in Washington State, a man involved in a cockfighting
operation was sentenced to time served (6 months), 3 years’ probation, and was prohibited from returning
to the United States without advance permission from the U.S. Attorney General or designee. He pled
guilty in December 2013 to participation in unlawful animal fighting. The joint investigation targeted
organized cockfighting derbies and large-scale drug traffickers who were involved. More than 40
individuals have been charged with a variety of offenses. Drugs, vehicles, weapons, and approximately
$93,000 in cash were seized during the investigation. In January 2014, another individual was sentenced to
5½ months in prison and was also prohibited from returning to the United States without similar Federal
permission. To date, five additional defendants in the case have pled guilty to felony charges in the case
and are awaiting sentencing.2

Parent and Son Sentenced and Ordered to Pay $1.4 Million in Restitution for SNAP Trafficking -
Maryland
On February 21, 2014, in U.S. District Court in Maryland, a food store owner and her son, who both
trafficked in SNAP benefits, were sentenced to 18 months and 38 months in prison, respectively, and were
ordered jointly and severally to pay restitution of $1.4 million and forfeit $371,400 previously seized
during enforcement operations. The two individuals were foreign citizens illegally in the United States.
They agreed not to object to any proceedings that may be brought to remove them from the country upon
completion of their sentences. OIG’s investigation, conducted jointly with the Federal Bureau of
Investigation, determined that the owner and her son illegally exchanged at least $1.4 million in SNAP
benefits for cash. They pled guilty to SNAP trafficking and wire fraud.

Borrower Sentenced for Conspiracy in Sale of Cattle Mortgaged to USDA – Mississippi
On February 28, 2014, in U.S. District Court in Mississippi, an FSA borrower who improperly sold loan
collateral was sentenced to 5 months’ incarceration, followed by 3 years’ probation, and was ordered to pay
$87,200 in restitution. OIG’s investigation determined that the man and his father sold cattle that were

2
  OIG conducted the investigation with the Drug Enforcement Administration, Blue Mountain Enforcement Narcotics Team, and
the Washington State Gambling Commission.
                                                                                                                                 3

mortgaged to FSA and converted the funds for personal use. OIG found that they fabricated invoices
provided to FSA that represented purchases of cattle that did not exist. They both pled guilty to conspiracy
relating to the conversion of mortgaged cattle. The father was previously sentenced to 3 years’ probation.

Store Manager and Co-conspirator Sentenced and Ordered to Pay $1.6 Restitution for SNAP Fraud
and Money Laundering – Rhode Island
On March 6, 2014, in U.S. District Court in Rhode Island, the manager of a Providence store who
trafficked in SNAP benefits was sentenced to 5 years’ probation and ordered to pay $1.6 million in
restitution. The next day in the same court, the “straw owner” (in name only) of the store was sentenced to
one year’s probation and fined $4,500. The joint investigation determined SNAP benefits were exchanged
for cash at this store. The charges filed against the manager, store owner, and straw owner were conspiracy
to defraud the United States, SNAP and wire fraud, and money laundering. All three individuals pled
guilty. The store owner’s sentencing is pending.3

OIG Investigation into Farming Operations Partnership Scheme Obtains $5.3 Million Settlement for
USDA – Illinois
On December 20, 2013, three producers, collectively with several of their corporations and limited
partnerships, signed a settlement agreement and agreed to pay $5.35 million. OIG had conducted an
investigation into a multi-year scheme to circumvent farm program payment limitations. OIG’s
investigation revealed that the three men (the principal owner of a large Illinois farming operation, his son,
and son-in-law) created limited partnerships with other individuals who did not have the financial means or
ability to operate farming operations to qualify for the substantial farm program payments they received.
The 17 limited partnerships received farm program payments of approximately $6.69 million from several
FSA programs for the 2001-2008 crop years. The settlement agreement did not include admissions of guilt.
The final payment of the $5.35 million was received on January 28, 2014.

Food Store Employee Sentenced and Ordered to Pay $1 Million in Restitution for SNAP Trafficking
– New York
On March 4, 2014, in U.S. District Court in New York, an employee of a Bronx food store who trafficked
in SNAP benefits was sentenced to 4 months in prison, 4 months’ home confinement, and was ordered to
pay $1 million in restitution. OIG’s investigation disclosed that SNAP benefits were exchanged for U.S.
currency at two related stores in the same shopping center. OIG determined that several employees of the
food store and a related store in the shopping center exchanged SNAP benefits for cash at a discount.
Previously, the owner of the related store had been sentenced in 2013 to 2 years’ imprisonment and ordered
to pay $954,900 in restitution. 4

Husband and Wife Sentenced for SNAP Fraud, Ordered to Pay $654,000 Restitution - Maryland
On March 13, 2014, in U.S. District Court in Maryland, a co-owner of a Baltimore store who trafficked in
SNAP benefits was sentenced to 27 months in prison and was ordered to pay $654,300 in restitution.
OIG’s investigation, conducted jointly with the Federal Bureau of Investigation, found that the husband and
wife who owned the store exchanged SNAP benefits for cash and ineligible items. They both pled guilty to
SNAP fraud. On March 18, 2014, the wife was sentenced to 2 months in prison, 1 year of home detention,
and ordered to pay $654,300 in restitution.




3
  OIG’s investigation conducted the investigation with the Internal Revenue Service, the Rhode Island State Police, and the Food
and Nutrition Service (FNS).
4
  Sentencing is pending for two other individuals in this investigation: the owner of the food store pled guilty to SNAP fraud, and
an employee of the related store pled guilty to theft of Government funds.
